No. 19-

 

In THE
Supreme Court of the United States

CHRISTA GAIL PIKE,
Petitioner,

v.

GLORIA GROSS,
WARDEN,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,942 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 21, 2020.

 

Colin Casey Hoga:
Wilson-Epes Printing Co., Inc.
